No. ________
In The

WI-LAN, INC.; WI-LAN LABS, INC.;
AND WI-LAN USA, INC.,
Petitioners,
v.
DREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED STATES PATENT AND TRADEMARK OFFICE,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF SERVICE
I, Douglas R. Wilson, counsel for Petitioners, and a member of the Bar of this
Court, hereby certify that on the 8th day of March, 2021, I caused three copies of the
PETITION FOR A WRIT OF CERTIORARI in the above referenced case to be served
by U.S. Priority Mail, postage prepaid, upon counsel addressed as follows:
Solicitor General of the United States,
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Thomas W. Krause
Brian Racilla
Mai-Trang D. Dang
Office of the Solicitor
United States Patent & Trademark Office
Mail Stop 8
P.O. Box 1450
Alexandria, Virginia 22313-1450

thomas.krause@uspto.gov
brian.racilla@uspto.gov
mai-trang.dang@uspto.gov
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version was transmitted to the above-listed counsel at the referenced email
addresses.
I hereby certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.
Executed on March 8, 2021.

Douglas R. Wilson
ARMOND WILSON LLP
895 Dove St. Suite 300
Newport Beach, CA 92660
(949) 932-0778
doug.wilson@armondwilson.com
Counsel for Petitioners

2

